No. 20-6772
IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER SPREITZ, Petitioner,
v.
DAVID SHINN,
Director, Arizona Department of Corrections,
Rehabilitation & Reentry, Respondent.

NOTICE AND CERTIFICATE OF SERVICE
TO:

Lacey Stover Gard
Arizona Assistant Attorney General
Attorney General’s Office
400 W. Congress, Bldg. S-315
Tucson AZ 85701

Please take notice that I have sent via Federal Express the original and ten
copies of the Reply to Brief in Opposition in the above-captioned matter to the Clerk
of the Court, and that I am serving the Attorney General with one copy via U.S.
mail on this 25th day of February, 2021. All parties required to be served have been
served.
Jon M. Sands
Federal Public Defender
Timothy M. Gabrielsen*
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE DISTRICT OF ARIZONA
407 W. Congress, Ste. 501
Tucson, Arizona 85701
By: s/Timothy M. Gabrielsen
Timothy M. Gabrielsen
Counsel for Petitioner
*Counsel of Record

